FDIC Office of Inspector General Press Release: Bowie Realtor and Leader of $5.95 Million Mortgage Fraud Scheme Sentenced to Over 3 Years in Prison
News Release
United States Department of Justice
United States Attorney's Office
Contact: AUSA VICKIE E. LEDUC
Phone: (410) 209-4885
FOR IMMEDIATE RELEASE
August 21, 2013
BOWIE REALTOR AND LEADER OF $5.95 MILLION MORTGAGE FRAUD SCHEME SENTENCED TO OVER 3 YEARS IN PRISON
Greenbelt, Maryland - U.S. District Judge Peter J. Messitte sentenced Daniel Ofei, age 39, of Bowie, Maryland, today to 37 months in prison, followed by five years of supervised release, for conspiracy to commit wire fraud in connection with a mortgage fraud scheme involving losses of at least $5 million.  Judge Messitte also entered an order that Ofei pay restitution of $5,950,000.
The sentence was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Inspector General Jon T. Rymer of the Federal Deposit Insurance Corporation; Special Agent in Charge Kathy Michalko of the United States Secret Service â Washington Field Office; and Special Agent in Charge Cary A. Rubenstein of the Housing and Urban Development Office of Inspector General - Office of Investigations.
According to his plea agreement, from at least June 2006 to April 2009, Ofei, a licensed realtor, conspired with Michael Abobor, Jared Fanning, and others to use straw buyers to obtain fraudulent mortgages using false financial and employment information, to purchase homes in Maryland.  Abobor was also a licensed realtor and Fanning, a mortgage broker at the time, assisted Ofei and Abobor in obtaining the fraudulent mortgages.
For example, in early 2006, Ofei's wife wanted to purchase a home in Silver Spring, Maryland.  Ofei, serving as his wife's real estate agent, assisted his wife in obtaining a mortgage by providing Fanning with false information regarding his wife's income, citizenship, and intent to occupy the property as a primary residence. Ofei knew that his wife would not have qualified to obtain the mortgage with truthful financial information. Ofei's wife purchased the house and Ofei collected approximately $16,471 in commission from the transaction.  The home was sold short in 2008, resulting in a $150,000 loss to the bank.
In 2006 and 2007, Ofei facilitated the purchase of at least four other properties in a similar manner. For each loan application Ofei provided Fanning with fraudulent information about the borrower's employment and income, knowing that the buyer would not have qualified for a mortgage with truthful financial information.  Based on these fraudulent applications, the victim lending institutions funded loans that totaled hundreds of thousands of dollars, resulting in substantial commission payments to Ofei and his co-conspirators.  Eventually, each of the loans fell into default, causing large losses to the victims.
In all, Ofei, Abobor and their business partners recruited approximately thirty straw buyers, arranged more than 50 real estate transactions, caused more than $5,956,000 in losses to financial institutions, took in excess of $333,000 in real estate commissions, and collected over $1,200,000 in extra money from the transactions in the form of payments for renovations that were never completed.
Michael Abobor, age 38, of Bowie, Maryland and Jared Fanning, age 34, of Potomac, Maryland, have both pleaded guilty to their roles in the conspiracy. Two other co-conspirators, Emeka Udeze, age 38 of Bowie, a licensed mortgage broker, and Shola Risikat Balogun, age 46, of Upper Marlboro, Maryland, have also pleaded guilty in the scheme.  All are awaiting sentencing.
The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate and investigate mortgage fraud and promote the early detection, identification, prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage-Fraud/index.html.
Today's announcement is part of efforts underway by President Obama's Financial Fraud Enforcement Task Force (FFETF) which was created in November 2009 to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20 federal agencies, 94 U.S. attorneys' offices and state and local partners, it's the broadest coalition of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since its formation, the task force has made great strides in facilitating increased investigation and prosecution of financial crimes; enhancing coordination and cooperation among federal, state and local authorities; addressing discrimination in the lending and financial markets and conducting outreach to the public, victims, financial institutions and other organizations. Over the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants. For more information on the task force, visit www.stopfraud.gov.
United States Attorney Rod J. Rosenstein praised the FDIC Office of Inspector General, U.S. Secret Service and the Department of Housing and Urban Development Office of Inspector General for their work in the investigation.  Mr. Rosenstein thanked Assistant U.S. Attorney Sujit Raman, who prosecuted the case.